COUNSEL PRESS
October 28, 2019
Supreme Court of the United States
Supreme Court Building
One First Street, NE
Washington, D.C. 20543
Attention: Donald Baker

Re:

David Seth Worman, et al. v. Maura T. Healey, Attorney General of
Massachusetts, et al.
No. 19-404

Dear Mr. Baker:
Pursuant to your office's conversation with Gary Chyi of our Chicago office, I write to provide
40 replacement copies ofthe BriefofNinety-Four Members ofthe United States House of
Representatives as Amici Curiae in Support of Petitioners which was originally filed on October
25, 2019. The cover has been corrected due to a printer's error. The balance of the Brief remains
the same.
All service parties previously served are copied on this letter and will receive replacement copies
via U.S.P.S. Express Mail. Please destroy all copies of the Brief previously sent.
We apologize for any inconvenience, and thank you for your understanding and cooperation.
Very truly yours,
CO
L PRESS

Melissa Pickett
Paralegal
cc:
John Parker Sweeney, Bradley Arant Boult Cummings, LLP
Julia Eleanor Kobick, Office of the Massachusetts Attorney General

Counsel Press LLC 460 West 34th Street New York, NY 10001 212-685-9800 tel 800-427-7325 toll free 212-679-1254 fax www.counselpress.com
Boston. MA Buffalo, NY Chicago, IL Los Angeles. CA Iselin. NJ New York, NY Philadelphia, PA Richmond, VA Rochester, NY Syracuse. NY Walton. NY Washington. D.C.

